           INSPECTOR GENERAL, DOD, OVERSIGHT
            OF THE ARMY AUDIT AGENCY AUDIT
            OF THE FY 2000 ARMY GENERAL FUND
                  FINANCIAL STATEMENTS


Report No. D-2001-064               February 28, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronym
AAA                   Army Audit Agency
                       Office of the Inspector General, DoD
Report No. D-2001-064                                              February 28, 2001
  (Project No. D2001FI-0036.000)

       Inspector General, DoD, Oversight of the Army Audit Agency
       Audit of the FY 2000 Army General Fund Principal Financial
                               Statements

                                   Executive Summary

Introduction. Public Law 101-576, the “Chief Financial Officers Act of 1990,”
November 15, 1990, as amended by Public Law 103-356, the “Federal Financial
Management Act of 1994,” October 13, 1994, requires DoD to prepare annual audited
Army General Fund financial statements. Office of Management and Budget Bulletin
No. 01-02, “Audit Requirements for Federal Financial Statements,” October 16, 2000,
establishes the minimum requirements for audits of these financial statements. This
Bulletin requires the Inspector General, DoD, to express an opinion on the DoD
financial statements and to report on the adequacy of internal controls and compliance
with laws and regulations. We delegated the audit of the FY 2000 Department of the
Army General Fund financial statements to the Army Audit Agency. This report is the
first in a series of reports and discusses the work performed on the oversight of the
Army Audit Agency audit.

Objectives. Our audit included two overall objectives. The first objective was to
oversee the Army Audit Agency audit to verify whether we can rely on the work done
by the Army Audit Agency. This report focuses on the oversight objective.
Specifically, we:

   •   reviewed the Army Audit Agency approach and planning for the audit,

   •   monitored the progress of the audit at key points,

   •   reviewed audit reports before the Army Audit Agency issued them, and

   •   performed other procedures necessary to evaluate the adequacy of the audit
       approach and conclusions.

The second objective, to determine whether the Defense Finance and Accounting
Service Indianapolis consistently and accurately compiled financial data from field
activities and other sources for the FY 2000 Army General Fund financial statements,
will be addressed in a separate report. See Appendix A for a discussion of the audit
process.
Results. The Army Audit Agency could not express an opinion on the FY 2000
Department of the Army General Fund financial statements. We concur with the Army
Audit Agency disclaimer of opinion; our endorsement of that disclaimer is Exhibit 1.
Excerpts of the Army Audit Agency report are included as Exhibit 2 and provide the
reasons for the disclaimer of opinion and identify the material weaknesses and
reportable conditions associated with the internal controls and compliance with laws and
regulations. The complete Army Audit Agency audit report, “Army’s General Fund
Principal Financial Statements for Fiscal Year 2000: Summary Audit Report,”
February 7, 2001, can be accessed on the Internet at http://www.aaa.army.mil. Fiscal
Year 2000 Army General Fund Financial Statements can be accessed on the Internet at
www.dtic.mil/comptroller.




                                           ii
Table of Contents

Executive Summary                                                        i

Appendixes
     A. Audit Process
         Scope and Methodology                                           1
         Prior Coverage                                                  3
     B. Report Distribution                                              4

Exhibits
     1. Inspector General, DoD, Endorsement Memorandum
     2. Excerpts from the Army Audit Agency Report, “Army’s General
        Fund Principal Financial Statements for FY 2000: Summary Audit
        Report”
Appendix A. Audit Process

Scope and Methodology
    Audit Work Performed. To fulfill our responsibilities under Public Law
    101-576, the “Chief Financial Officers Act of 1990,” November 15, 1990, as
    amended by Public Law 103-356, the “Federal Financial Management Act
    of 1994,” October 13, 1994, and Office of Management and Budget Bulletin
    No. 01-02, "Audit Requirements for Federal Financial Statements," dated
    October 16, 2000, we performed oversight of the independent audit conducted
    by the Army Audit Agency (AAA) of the FY 2000 Army General Fund
    financial statements. We reviewed the AAA audit approach and planning and
    monitored audit progress at key points.

    Reviewing the AAA Audit Approach. We used the “Federal Financial
    Statements Audit Manual,” January 1993, issued by the President’s Council on
    Integrity and Efficiency, and the “Financial Audit Manual,”
    December 12, 1997, issued by the General Accounting Office, as the criteria for
    reviewing the AAA audit approach. Specifically, we reviewed the engagement
    letter, participated in the entrance conference, assisted in formulating the audit
    strategy, and commented on audit plans and programs. We also participated in
    audit planning and working group meetings coordinated by the Inspector
    General, DoD, and the AAA.

    Monitoring Audit Progress. Through the DoD Financial Statement Audit
    Executive Steering Committee, and an integrated line-item oversight effort, we
    provided a forum for a centrally managed exchange of guidance and
    information. We attended In-Process Review workshops, where AAA discussed
    the results of audit work they performed for the DoD line item managers. For
    example, we attended the workshop where AAA detailed the work completed on
    additions and deletions of National Defense Property, Plant, and Equipment on
    the property books. We participated in audit working groups on significant
    topics in financial reporting for the Army General Fund. For example, we
    participated in the audit working group for the review of field accounting site
    compilation, and the working group for real property. We reviewed and
    commented on related draft audit reports issued by the AAA, including the
    opinion report and the report on internal controls and compliance with laws and
    regulations.

    In addition to these oversight procedures, we performed other procedures as
    necessary to determine the fairness and accuracy of the AAA audit approach and
    conclusions. We co-performed audit work with the AAA on the review of
    accounting information compiled and reported by field accounting sites, and the
    compilation of the Army General Fund financial statements at the Defense
    Finance and Accounting Service Indianapolis. We also used the results of the
    line item managers’ and General Accounting Office reviews of AAA audit work
    to increase our understanding and provide meaningful input to the AAA. For
    example, the line item manager for National Defense Property, Plant, and
    Equipment co-performed audit work with AAA on the reporting of Required
    Supplemental Stewardship Information.


                                        1
DoD-Wide Corporate-Level Government Performance and Results Act
Coverage. In response to the Government Performance and Results Act, the
Secretary of Defense annually establishes DoD-wide corporate-level goals,
subordinate performance goals, and performance measures. This report pertains
to achievement of the following goal, subordinate performance goal, and
performance measures.

       FY 2001 DoD Corporate-Level Goal 2: Prepare now for an uncertain
       future by pursuing a focused modernization effort that maintains U.S.
       qualitative superiority in key warfighting capabilities. Transform the
       force by exploiting the Revolution in Military Affairs, and reengineer the
       Department to achieve a 21st century infrastructure. (01-DoD-02)

       FY 2001 Subordinate Performance Goal 2.5: Improve DoD financial
       and information management. (01-DoD-2.5)

       FY 2001 Performance Measure 2.5.1: Reduce the number of
       noncompliant accounting and finance systems. (01-DoD-2.5.1.).

       FY 2001 Performance Measure 2.5.2: Achieve unqualified opinions
                                   −DoD-2.5.2.).
       on financial statements. (01−

DoD Functional Area Reform Objectives and Goals. Most major DoD
functional areas have also established performance improvement reform
objectives and goals. This report pertains to achievement of the following
functional area objective and goal.

       Financial Management Area. Objective: Strengthen internal controls.
       Goal: Improve compliance with the Federal Managers’ Financial
       Integrity Act. (FM-5.3)

General Accounting Office High-Risk Area. The General Accounting Office
has identified several high-risk areas in the DoD. This report provides coverage
of the Defense Financial Management high-risk area.

Audit Type, Period, and Standards. We performed this financial statement
audit from October 12, 2000, to February 7, 2001, in accordance with auditing
standards issued by the Comptroller General of the United States, as
implemented by the Inspector General, DoD. We did not use computer-
processed data or statistical sampling procedures to conduct our oversight of the
AAA audit of the FY 2000 Department of the Army General Fund financial
statements.

Contacts During the Audit. We visited or contacted individuals and
organizations in the DoD audit and accounting communities. Further details are
available upon request.




                                    2
Prior Coverage
    The General Accounting Office and the Inspector General, DoD, have
    conducted multiple reviews related to financial statement issues. General
    Accounting Office reports can be accessed on the Internet at
    http://www.gao.gov. Inspector General, DoD, reports can be accessed on the
    Internet at https://www.dodig.osd.mil.




                                      3
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organization
Director, Defense Finance and Accounting Service

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Accounting Office




                                           4
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          5
Exhibit 1. Inspector General, DoD,
           Endorsement Memorandum
Exhibit 2. Excerpts from the Army
           Audit Agency Audit Report,
           “Army’s Principal Financial
           Statements for FY 2000:
           Summary Audit Report”
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

F. Jay Lane
Salvatore D. Guli
Richard B. Bird
Jack L. Armstrong
Leslie M. Barnes
Craig W. Zimmerman
